HHS/OIG, Audit - " Review of Overpayment Collections for the Aid to Families with Dependent Children Program by the San Bernadino County Human Services System," ( A-09-01-00103)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections for the Aid to Families With Dependent
Children Program by the San Bernardino County Human Services System," (A-09-01-00103)
June 28, 2002
Complete Text of Report is available in PDF format
(3.94 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require that states pursue Aid to Families with Dependent
Children overpayments made prior to October 1, 1996, and make appropriate refunds
to the Federal Government.  This final report points out that the State
of California had not done so for such overpayments totaling $5.2 million (Federal
share) collected during the period November 22, 1996 through July 31, 2001.
We recommended a financial adjustment for the $5.2 million, and that the State
also refund the Federal share of overpayments collected subsequent to July 31,
2001.